TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Complexity of the Law Makes
                 Administering the Alternative Motor Vehicle
                               Credit Difficult



                                             May 6, 2008

                                Reference Number 2008-30-107




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 May 6, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Complexity of the Law Makes Administering
                              the Alternative Motor Vehicle Credit Difficult (Audit # 200730024)

 This report presents the results of our review of the Alternative Motor Vehicle Credit. The
 overall objective of this review was to determine whether the Internal Revenue Service (IRS) had
 adequate controls in place to properly implement and ensure taxpayer compliance with the
 Alternative Motor Vehicle Credit provision of the Energy Policy Act of 2005.1 The audit was
 conducted as part of the Treasury Inspector General for Tax Administration annual audit plan.

 Impact on the Taxpayer
 The Energy Policy Act of 2005 provided an Alternative Motor Vehicle Credit (Credit) for
 taxpayers purchasing certain energy efficient vehicles. The Joint Committee on Taxation2
 estimated that this provision could save taxpayers who purchase qualified vehicles $874 million
 in taxes over the next decade (with the majority of tax savings occurring in the first 3 years of the
 provision). This law is very complex and could be easily misunderstood by taxpayers. Specific
 requirements must be met to ensure that taxpayers claim the correct Credit amount. It is
 important for the IRS to help taxpayers meet their tax responsibilities by clearly informing them
 of the requirements that must be met to accurately claim the Credit.




 1
   Pub. L. No. 109-58, sec. 1341(a), § 30B, 119 Stat. 594, 1038-39.
 2
   Advisory Committee charged with monitoring Federal tax policy and estimating the impact of proposed tax
 legislation.
                          The Complexity of the Law Makes Administering
                           the Alternative Motor Vehicle Credit Difficult




Synopsis
The complexity of the law that provided for the Credit created administrative difficulties for the
IRS. The Credit is not refundable, but it lowers the taxpayer’s liability up to the amount of tax
owed. The law contains a phase-out provision for the Credit, which reduces the effect of the
Credit by calendar quarter after the number of vehicles sold reaches 60,000. Taxpayers may
claim 100 percent of the Credit associated with the qualified vehicles until the second calendar
quarter after the 60,000th vehicle from that manufacturer has been sold. The Credit then is
reduced to 50 percent for qualifying vehicles purchased during the second and third calendar
quarters following the sale of the 60,000th vehicle, reduced to 25 percent for qualifying vehicles
purchased during the fourth and fifth calendar quarters, and finally eliminated for vehicles
purchased after the fifth calendar quarter. To qualify for the Credit, taxpayers must meet certain
requirements including: the qualifying vehicle must be placed in service after
December 31, 2005; the original use of the vehicle must begin with the taxpayer claiming the
Credit; the vehicle must be used predominantly in the United States; and the Credit may only be
claimed by the original owner of a new, qualifying, hybrid vehicle and does not apply to a used
hybrid vehicle (if a car is leased, only the lessor may claim the Credit, not the lessee).
The law contained no provision for manufacturers to provide taxpayers with documentation
regarding the Credit to which they were entitled (based on sales figures) at the time of the
purchase of their vehicle. The onus was placed on taxpayers to research what percentage of the
available Credit was still available for the car they purchased on the date they purchased it. This
created a significant challenge for the IRS to help taxpayers determine whether their car qualified
for the Credit, what the qualifying amount was, and the percentage of the qualifying amount to
which the taxpayer was entitled.
The law also contained no provision for manufacturers to provide the IRS with documentation
regarding the Credit to which specific taxpayers were entitled. Despite these challenges, the IRS
provided adequate information for most taxpayers to properly claim the credit.
We did find that instructions for the Alternative Motor Vehicle Credit (Form 8910) did not
clearly inform taxpayers that if they were the lessee of a vehicle, they could not claim the Credit
for that vehicle. Based on a sample taken from 3 States’ Department of Motor Vehicles records
of taxpayers leasing what would have otherwise been qualifying vehicles, we found that 22
percent of the taxpayers erroneously claimed the Credit. We immediately informed the IRS of
our concerns and recommended they revise the Form 8910 instructions to clarify the
requirements for qualifying for the Credit, specifically regarding leased vehicles. The IRS
responded in a timely manner and changed the instructions to explain that only lessors are
entitled to claim the Credit.
We also found that the IRS needs to establish additional controls to ensure that egregious claims
for the Credit are identified. From a population of 420 electronically filed taxpayer claims for

                                                                                                      2
                             The Complexity of the Law Makes Administering
                              the Alternative Motor Vehicle Credit Difficult



Credits of more than $4,0003 each, we found that 15 percent of the taxpayers either claimed
non-qualifying vehicles, claimed qualifying vehicles at amounts higher than the amount allowed,
or did not provide the required data to support their claim, and yet their claims were allowed by
the IRS.

Recommendations
We recommended that the Commissioners, Small Business/Self-Employed Division and Wage
and Investment Division, work cooperatively to establish criteria to select questionable claims
for review by appropriate examination functions for taxpayers claiming the Credit. Further, if a
significant compliance issue in claims for the Credit is found, the Commissioner, Small
Business/Self-Employed Division, should consider proposing legislation to require the seller of a
qualified vehicle to provide the purchaser and the IRS with an information document, similar to a
Form 1099, supporting a claim. If such legislation is passed, a method should be developed
aimed at matching the information document against the Credit claimed. Finally, the Director,
Submission Processing, Wage and Investment Division, should also establish procedures to
correspond with taxpayers for missing Forms 8910 or for missing information on Forms 8910
when appropriate.

Response
IRS management agreed with the recommendations in this report. Specifically, the IRS agreed
to establish dollar criteria for selection of questionable claims for the Credit on all filed returns
and will prepare an analysis of the return on investment of examining these returns to determine
the cost effectiveness of the screening methodology. If necessary, the screening process will be
reassessed based upon the analysis of examination results, and adjustments to the screening
criteria, if any, will be reflected in updated procedural guidelines and in the Internal Revenue
Manual. The IRS also agreed to review the results of the analysis mentioned above and, if
appropriate, initiate actions to support a legislative proposal requiring a seller of a qualified
vehicle to provide the purchaser and the IRS with an information document, similar to Form
1099, supporting a claim. IRS actions also include researching additional program costs,
creating systemic measures to accommodate the processing and matching of an information
document, projecting agency benefits and resource savings, and soliciting outside groups for
input focused on reduction of taxpayer and third-party burden. Finally, the IRS agreed to
establish procedures to correspond with taxpayers for missing Forms 8910 or for missing

3
 We selected the $4,000 amount because it was more than the highest amount allowed for hybrid vehicles. The vast
majority of claims for the Credit were for hybrid vehicles. This figure is not an IRS tolerance.



                                                                                                              3
                        The Complexity of the Law Makes Administering
                         the Alternative Motor Vehicle Credit Difficult



information on Forms 8910. Management’s complete response to the draft report is included as
Appendix V.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Acting
Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(202) 622-8510.




                                                                                               4
                                   The Complexity of the Law Makes Administering
                                    the Alternative Motor Vehicle Credit Difficult




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          The Complexity of the Law Created Difficulties for the Internal
          Revenue Service and Taxpayers ...................................................................Page 2
          The Internal Revenue Service Provided Information for Most
          Taxpayers to Properly Claim the Credit .......................................................Page 5
          Some Taxpayers Erroneously Claimed the Alternative Motor Vehicle
          Credit for Leased Vehicles............................................................................Page 6
          Additional Controls Are Needed to Ensure That Egregious Claims
          Are Identified ................................................................................................Page 7
                    Recommendation 1 ..........................................................Page 8
                    Recommendations 2 and 3 .................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measures...............................................................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 17
      The Complexity of the Law Makes Administering
       the Alternative Motor Vehicle Credit Difficult




              Abbreviations

DMV     Department of Motor Vehicles
IRS     Internal Revenue Service
                              The Complexity of the Law Makes Administering
                               the Alternative Motor Vehicle Credit Difficult




                                             Background

The Energy Policy Act of 20051 contained several incentives intended to encourage taxpayers to
make energy conscious purchases. One such incentive for taxpayers who purchase certain
energy efficient vehicles was the Alternative Motor Vehicle Credit (Credit). Internal Revenue
Code Section 30B provides for the new Credit and is effective for qualified vehicles2 placed in
service after December 31, 2005. The Joint Committee on Taxation3 estimated that this
provision could save taxpayers who purchase qualified vehicles $874 million in taxes over the
next decade.4 Generally, taxpayers who have purchased qualifying hybrid vehicles should use
the Alternative Motor Vehicle Credit (Form 8910) to calculate the proper amount of the Credit to
be claimed. Because Tax Year 2006 was the inaugural year of the Credit and specific details of
the provision are complex, we believed that many taxpayers may not fully understand and
correctly calculate the Credit.
This review was performed by auditors at the Treasury Inspector General for Tax
Administration’s post of duty in the Internal Revenue Service (IRS) Ogden Campus5 during the
period December 2006 through December 2007 and included a review of Tax Year 2006
individual income tax returns filed by taxpayers nationwide and discussions with personnel from
the IRS Wage and Investment Division’s Customer Assistance, Relationships, and Education
function and Customer Account Services function. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




1
  Pub. L. No. 109-58, sec. 1341(a), § 30B, 119 Stat. 594, 1038-39.
2
  A qualified vehicle is defined for this purpose as any passenger automobile or light truck that is a new advanced
lean-burn technology motor vehicle or a new, qualified, hybrid motor vehicle.
3
  Advisory Committee charged with monitoring Federal tax policy and estimating the impact of proposed tax
legislation.
4
  The 10 year period referred to in the estimate dated July 27, 2005 is Fiscal Years 2006 to 2015.
5
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to the taxpayer accounts.
                                                                                                             Page 1
                               The Complexity of the Law Makes Administering
                                the Alternative Motor Vehicle Credit Difficult




                                       Results of Review

The Complexity of the Law Created Difficulties for the Internal
Revenue Service and Taxpayers
The new legislation allowed a tax Credit6 for four separate categories of vehicles:
     •    Fuel cell vehicles, which are motor vehicles propelled by power derived from chemical
          energy converted directly into electricity.
     •    Advanced lean-burn technology vehicles, which are passenger automobiles with internal
          combustion engines designed to operate using more air than is necessary for complete
          burning of the fuel. The vehicles must also incorporate direct injection and must meet
          certain fuel economy standards and requirements of the Clean Air Act.
     •    Hybrid vehicles, which are defined as vehicles that draw propulsion energy from
          batteries and an internal combustion engine using a consumable fuel such as gasoline.
          The vehicles must also have received a certificate of conformity under the Clean Air
          Act. Credits can vary from $250 to $3,150.
     •    Alternative fuel vehicles, which are vehicles using compressed natural gas, liquefied
          natural gas, liquefied petroleum gas, hydrogen, and any liquid at least 85 percent of the
          volume of which consists of methanol.
In addition to purchasing a vehicle that qualifies for the Credit, the taxpayer must also meet other
requirements to qualify for the Credit. For example:
      •   The taxpayer’s qualified vehicle must be placed in service after
          December 31, 2005.
      •   The original use of the vehicle must begin with the taxpayer claiming the Credit.
      •   The Credit may only be claimed by the original owner of a new, qualifying,
          hybrid vehicle and does not apply to a used hybrid vehicle. If a qualifying
          vehicle is leased to a consumer, the leasing company may claim the Credit.
      •   The vehicle must be used predominantly within the United States.



6
  A tax credit is subtracted directly from the total amount of Federal tax owed, thus reducing or even eliminating the
taxpayer’s tax obligation.
                                                                                                              Page 2
                            The Complexity of the Law Makes Administering
                             the Alternative Motor Vehicle Credit Difficult



The law also contains a phase-out provision for both hybrid and advanced lean burn technology
vehicles. The phase-out period begins with the second calendar quarter following the quarter in
which the number of qualified vehicles sold by a manufacturer after December 31, 2005, is at
least 60,000. The Credit then is reduced to 50 percent for qualifying vehicles purchased during
the second and third calendar quarters following the sale of the 60,000th vehicle, reduced to
25 percent for qualifying vehicles purchased during the fourth and fifth calendar quarters, and
finally eliminated for vehicles purchased after the fifth calendar quarter. For example, Toyota
Motor Sales, U.S.A., Inc., reached the sale of the 60,000th qualifying hybrid vehicle during the
calendar quarter ending June 30, 2006. Therefore, the phase out for Toyota and Lexus vehicles
began October 1, 2006 (the beginning of the second calendar quarter after the quarter in which
the 60,000th vehicle was sold). See Figure 1.
                Figure 1: Credit Amount and Purchase Date Limitation for
                         Various Models of Toyota and Lexus Vehicles

   Qualifying         Full Credit if     Half Credit if     Quarter Credit       No Credit if
    Vehicle          Purchased by      Purchased From        if Purchased      Purchased After
                        9/30/06        10/01/06 - 3/31/07   From 4/01/07 –        10/01/07
                                                                 9/30/07
2005, 2006 and
2007                     $3,150             $1,575             $787.50                 $0
Toyota Prius
2006 and 2007
Toyota
Highlander
2WD and 4WD              $2,600             $1,300               $650                  $0
2007 Toyota
Camry Hybrid             $2,600             $1,300               $650                  $0
2006 and 2007
Lexus RX 400h
2WD and 4WD              $2,200             $1,100               $550                  $0
2007 Lexus
GS450h                   $1,550              $775              $387.50                 $0
Source: IRS Fact Sheet – 2007-9.

The law contained no provision for manufacturers to provide taxpayers with documentation
regarding the Credit to which they were entitled (based on sales figures) at the time of the
purchase of their vehicle. The onus was placed on taxpayers to research what percentage of the
Credit was still available for the car they purchased on the date they purchased it. This created a
significant challenge for the IRS to help taxpayers determine whether their car qualified for the
Credit, what the qualifying amount was, and the percentage of the qualifying amount to which
the taxpayer was entitled.

                                                                                             Page 3
                                The Complexity of the Law Makes Administering
                                 the Alternative Motor Vehicle Credit Difficult



The law also contained no provision for manufacturers to provide the IRS with documentation
regarding the Credit to which specific taxpayers were entitled. The taxpayer receives no
documentation with which to substantiate their claim to the IRS. Further, the IRS has no data
sharing process with State Departments of Motor Vehicles (DMV) to help determine when the
applicable cars were purchased or placed in service.
During our review, the complexities in the law and the lack of required documentation made it
very difficult for us to determine whether some taxpayers qualified for the Credits they claimed.
For example, to verify a taxpayer’s claim for the Credit, it was necessary for us to determine the
date the vehicle was purchased and/or placed in service. This piece of information is critical in
the verification of the Credit amount and is not always provided by the taxpayer on Form 8910.
In certain instances (discussed later), the taxpayer is not even required to file Form 8910 to
obtain the Credit. Instead, the taxpayer files the General Business Credit (Form 3800), which
provides only the amount of the Credit, with no data related to the vehicle for which the Credit
was claimed or when the vehicle was purchased or placed into service.
The purchase date or placed-in-service date indicates whether the taxpayer is entitled to
100 percent, 50 percent, 25 percent, or none of the Credit. Gathering independent substantiation
for this information would require that the IRS negotiate with each of the 50 States, or thousands
of different car dealerships, or request the information from taxpayers during an audit of their tax
returns. We obtained DMV data from Florida, Texas, and Utah and reviewed a judgmental
sample of 2837 returns to verify the taxpayers’ claim for the Credit. Of the 283 returns, we were
unable to determine the correctness of the Credit in 60 of the cases (21 percent), even with DMV
data. This was due to missing information on the tax return or inadequate data from the DMV.
In addition, we identified 19 cases (7 percent) where the taxpayer or his or her preparer made the
following errors when calculating the Credit:
      •    Six did not claim the Credit as entitled.
      •    Seven did not appear to be the original owner of the qualified vehicle.
      •    Four claimed 100 percent of the Credit when they were only entitled to 50 percent of the
           Credit.
      •    Two did not claim all of the Credit available.
Although we used State DMV information to try and verify the correctness of the taxpayer
claims, it is unlikely that the IRS would be able to use this data on a large scale basis. We
requested DMV information from 5 States; however, we were only able to obtain the data
(without cost) from 3 of the 5 States, and 1 of the States took more than 3 months to provide the
information. In addition, the type of data provided from the three States varied widely. Two of


7
    We excluded leased vehicles from this sample.
                                                                                             Page 4
                              The Complexity of the Law Makes Administering
                               the Alternative Motor Vehicle Credit Difficult



the three States did not provide enough information to enable us to calculate the Credit
independently of the taxpayer data. In our opinion, to effectively administer the Credit, the IRS
would need to obtain the necessary information to verify that the claims are valid (e.g., purchase
or placed-in-service date, type of vehicle, year, and make of vehicle). Presently, there are no
easy ways to obtain this information. However, without this information, the IRS is forced to
accept whatever information the taxpayer provides. This makes it impossible, without auditing
the return, to determine whether taxpayers are properly claiming the Credit.

The Internal Revenue Service Provided Information for Most
Taxpayers to Properly Claim the Credit
Through the use of the IRS Newswire,8 news releases, and tax tips published on its web site, the
IRS kept taxpayers and preparers apprised of the Credit, which was new for Tax Year 2006.
Generally, the information provided through the news releases informed taxpayers and preparers
of the following:
    •    Year, make, and model of vehicles qualifying for the Credit.
    •    The amount of the Credit available.
    •    The number of vehicles sold to determine whether the phase out of the Credit for
         qualifying vehicles had begun.
The IRS published a table that informed taxpayers and preparers of the year, make, model, Credit
amount, and the initial news release that acknowledged the vehicle manufactures’ certifications
of qualified hybrid vehicles. The IRS continued to publish and update the table as additional
vehicles were acknowledged. The narrative used in the law to describe the phase out for
qualifying hybrid vehicles could be described as difficult to understand. For example, the
following narrative describes the phase-out provisions of the Credit:
         The phase-out period for a manufacturer begins with the second calendar quarter after
         the calendar quarter in which the manufacturer records its 60,000th sale. For the second
         and third calendar quarters after the quarter in which the 60,000th vehicle is sold,
         taxpayers may claim 50 percent of the credit. For the fourth and fifth calendar quarters,
         taxpayers may claim 25 percent of the credit. For quarters after that fifth quarter,
         taxpayers may not claim the credit.
The IRS reduced the difficulty in understanding the narrative by adding to the table--next to the
affected year and model of vehicle--the purchase dates that affect the amount of Credit to be
claimed and the reduced amount of Credit for the related purchase dates. In addition to the table,
they also continue to publish sales information for other manufacturers (e.g., Ford Motor

8
 News releases from the IRS that cover the entire range of tax administration, including tax law changes, filing
season updates, statistics, and more.
                                                                                                             Page 5
                          The Complexity of the Law Makes Administering
                           the Alternative Motor Vehicle Credit Difficult



Company, General Motors, Honda, Nissan) that have yet to reach the sales limitation for the
phase-out provision of the Credit, as well as new vehicles that meet the Credit qualifications.
In addition to the tables relative to the hybrid automobiles, the IRS also issued tables that show
the Credit amount available for the qualified heavy hybrid vehicles and qualified alternative fuel
motor vehicles. Through the IRS’ efforts, most taxpayers were given the necessary information
to properly claim the Credit.

Some Taxpayers Erroneously Claimed the Alternative Motor Vehicle
Credit for Leased Vehicles
The Energy Policy Act of 2005 specifies that a taxpayer obtaining a qualifying vehicle by leasing
the vehicle from a dealer or leasing company is precluded from claiming the Credit. The IRS
states in published document FS-2007-9 that:
       A consumer that leases a hybrid vehicle is not eligible for the credit. The credit is
       allowed to the vehicle owner, including the lessor of a vehicle subject to a lease. That
       means that the lessor (the person who leases the vehicle to the consumer) is the person
       who can claim a credit for the vehicle.
From the DMV data we obtained, we identified 94 vehicles that were leased to taxpayers who
had filed their 2006 tax returns. We reviewed their tax returns to determine whether the
taxpayers had claimed the Credit and found that 21 taxpayers (22 percent) erroneously claimed
the Credit. These erroneous claims totaled $37,731 and resulted in reductions in tax liabilities
totaling $28,631. Not all of the amounts claimed had an effect on tax liability because some
taxpayers did not have enough tax liability to use the Credit or, in some cases, the Alternative
Minimum Tax reduced the amount of the Credit claimed. Regardless of whether the Credit
actually reduced a taxpayer’s tax liability, the fact remains that these taxpayers did not
understand the law. Of the 21 erroneous claims, 14 were prepared by the taxpayers themselves
and 7 were prepared by a paid preparer.
In reviewing the Form 8910 and the related instructions, we found that the form and related
instructions did not clearly inform taxpayers that if they were the lessee they were not entitled to
the Credit. The instructions contained the following requirements to qualify for the Credit:
   •   You placed the vehicle in service after 2005.
   •   The original use of the vehicle began with you.
   •   You acquired the vehicle for your use or to lease to others and not for resale.
   •   You use the vehicle primarily in the United States.
The misleading direction begins with the second bullet above. If the taxpayer is the lessee, then
the original use may very well have begun with the taxpayer. The third bullet adds to the

                                                                                              Page 6
                             The Complexity of the Law Makes Administering
                              the Alternative Motor Vehicle Credit Difficult



confusion. If the taxpayer acquired the vehicle through a lease, then it was acquired for the
taxpayer’s use.
Immediately upon discovering this issue, we informed the IRS of our concerns and
recommended they revise the instructions for Form 8910 to clarify the requirements for
qualifying for the Credit specifically with respect to leased vehicles. The IRS responded in a
timely manner and changed the instructions to explain that “if the vehicle is leased, only the
lessor and not the lessee, is entitled to claim the credit.”

Additional Controls Are Needed to Ensure That Egregious Claims Are
Identified
We reviewed claims for Alternative Motor Vehicle Credits of more than $4,0009 each claimed by
420 taxpayers who filed their returns electronically. We found 15 percent of these taxpayers
(61 of the 420) either claimed non-qualifying vehicles, claimed qualifying vehicles at amounts
higher than the amount allowed, or did not provide the required data to support their claim.
Nevertheless, their claims were allowed by the IRS.

Claims for non-qualifying vehicles and vehicles with credits exceeding the
allowable amount
We found 27 of the 420 taxpayers claimed vehicles that did not qualify for the Credit. Among
the vehicles claimed were two recreational vehicles. These 27 taxpayers claimed Credits totaling
more than $411,000, which resulted in erroneous reductions to their tax liabilities of more than
$90,000 (an average of more than $3,300 per taxpayer).
We also found that 21 of the 420 taxpayers claimed Credits exceeding the maximum allowable
Credit for the qualified vehicle claimed. Among these were claims for Credits of more than
$300,000 for a single vehicle. These 21 taxpayers made claims for approximately $1.8 million
more than they should have, resulting in erroneous reductions to their tax liabilities of more than
$33,000 (an average of more than $1,500 per taxpayer).
The erroneous claims for these Credits were allowed, at least in part, because the IRS did not
establish sufficient controls up-front during the processing of tax returns to ensure that claims
were only allowed for qualified vehicles, and that the amounts claimed were correct. Without at
least some reasonableness checks in place to identify potentially egregiously overstated amounts,
taxpayers could erroneously or purposefully claim amounts to which they are not entitled.




9
 We selected the $4,000 amount because it was more than the highest amount allowed for hybrid vehicles. The vast
majority of claims for the Credit were for hybrid vehicles. This figure is not an IRS tolerance.
                                                                                                        Page 7
                          The Complexity of the Law Makes Administering
                           the Alternative Motor Vehicle Credit Difficult



Claims without required supporting data
To claim the Credit, taxpayers are required to fill out and attach Form 8910 to their tax return
(even if they are claiming the Credit on Form 3800) unless the Credit is from a Partnership,
S Corporation, estate, or trust. In the latter cases, the claim for the Credit is filed on Form 3800,
which requires only the amount of the Credit being claimed, with no data related to the vehicle
for which the Credit was claimed or the date the vehicle was placed into service, and a
Form 8910 is not required. Taxpayers participating in a Partnership, S Corporation, estate, or
trust would also file a Supplemental Income and Loss (Schedule E) with their individual income
tax return.
Of the 420 claims for the Credit of more than $4,000 included in our review, we found that
100 claims did not have the required supporting data. These claims were filed on Form 3800
with no corresponding Form 8910 or were claimed on Form 8910 but without entries on the
appropriate lines to establish the qualifying vehicle being claimed and the placed-in-service date
of the vehicle. Because the only time that such claims would be appropriate is if the taxpayer
participated in a Partnership, S Corporation, estate, or trust, we reviewed these 100 claims to
determine if the taxpayer had attached a Schedule E to their return. We found that 13 of these
taxpayers (13 out of 100) did not attach a Schedule E and, thus, had most likely not participated
in one of these business entities. Therefore, their claims for the Credit were filed
inappropriately. These 13 taxpayers made claims for $489,163 without providing the
documentation required.
We were informed that the IRS previously was corresponding with taxpayers any time a Credit
was claimed without the Form 8910 being attached to their tax return. Because of concerns by
the Taxpayer Advocate that taxpayers who were not required to file Form 8910 were being
burdened, the IRS discontinued the practice of corresponding with taxpayers when Forms 8910
were missing.

Recommendations
Recommendation 1: The Commissioners, Small Business/Self-Employed Division and
Wage and Investment Division, should work cooperatively to establish criteria to select
questionable claims for the Alternative Motor Vehicle Credit on both paper and electronically
filed returns for review by appropriate examination functions to verify the amount of the credit
claimed. This recommendation only applies to taxpayers who claimed the credit using
Form 8910 and will not identify any erroneous claims made by taxpayers claiming the credit on
Form 3800 without a Form 8910 to support the claim.
       Management’s Response: The Commissioner, Wage and Investment Division,
       agreed with this recommendation and will work cooperatively with the Small
       Business/Self-Employed Division Commissioner to establish dollar criteria for selection
       of questionable claims for the Alternative Motor Vehicle Credit on all filed returns. An

                                                                                               Page 8
                         The Complexity of the Law Makes Administering
                          the Alternative Motor Vehicle Credit Difficult



       analysis will be prepared of the return on investment of examining these returns to
       determine the cost effectiveness of the screening methodology. If necessary, the
       screening process will be reassessed based upon the analysis of examination results, and
       adjustments to the screening criteria, if any, will be reflected in updated procedural
       guidelines and in the Internal Revenue Manual.
Recommendation 2: The Commissioner, Small Business/Self-Employed Division, if finding
a significant compliance issue in claims for the Alternative Motor Vehicle Credit, should
consider: a) proposing legislation to require the seller of a qualified vehicle to provide the
purchaser and the IRS with an information document, similar to a Form 1099, supporting a
claim, and b) if such legislation is passed, a method should be developed aimed at matching the
information document against the Credit claimed.
       Management’s Response: IRS management agreed with this recommendation. The
       Commissioner, Small Business/Self-Employed Division, will review the results of the
       analysis from Recommendation 1 and, if appropriate, will initiate actions to support a
       legislative proposal requiring the seller of a qualified vehicle to provide the purchaser and
       the IRS with an information document, similar to Form 1099, supporting a claim. IRS
       actions also include researching additional program costs, creating systemic measures to
       accommodate the processing and matching of an information document, projecting
       agency benefits and resource savings, and soliciting outside groups for input focused on
       reduction of taxpayer and third-party burden.
Recommendation 3: The Director, Submission Processing, Wage and Investment Division,
should establish procedures to correspond with taxpayers for missing Forms 8910 or for missing
information on Forms 8910 when a Schedule E is not attached to the taxpayer return indicating
participation in a Partnership, S Corporation, estate, or trust.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Submission Processing, Wage and Investment Division, will establish
       procedures to correspond with taxpayers for missing Forms 8910, or for missing
       information, when a Schedule E is not attached to the return indicating participation in a
       Partnership, S Corporation, estate, or trust.




                                                                                             Page 9
                               The Complexity of the Law Makes Administering
                                the Alternative Motor Vehicle Credit Difficult



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS had adequate controls in
place to properly implement and ensure taxpayer compliance with the Alternative Motor Vehicle
Credit (Credit) provision of the Energy Policy Act of 2005.1 To accomplish our objective, we:
I.       Determined whether forms and instructions had been updated to include the Credit.
         A. Determined whether the IRS had a coordinated implementation plan for the Credit.
         B. Reviewed Alternative Motor Vehicle Credit (Form 8910) and related instructions for
            clarity regarding the requirements to qualify for the Credit.
II.      Determined whether the IRS effectively advertised and communicated to taxpayers and
         preparers the availability of the Credit.
         A. Reviewed IRS published articles from the Newswire2 and Newsroom3 with
            information regarding the Credit.
         B. Contacted IRS management for information regarding outreach efforts made after the
            Energy Policy Act of 2005 was signed.
III.     Determined whether the IRS properly modified computer programs to account for the
         Credit.
         A. Reviewed U.S. Individual Income Tax Return (Form 1040) to determine whether a
            separate line was used to account for the Credit or whether it was included on the
            miscellaneous credit line.
         B. Requested documentation for programming efforts for the Credit.
         C. Reviewed taxpayer accounts from the sample described in Step V.B. to determine
            whether the Credit correctly posted to taxpayers’ accounts.




1
  Pub. L. No. 109-58, sec. 1341(a), § 30B, 119 Stat. 594, 1038-39.
2
  News releases from the IRS that cover the entire range of tax administration, including tax law changes, filing
season updates, statistics, and more.
3
  A location on the IRS web site that contains articles on a variety of tax topics.
                                                                                                            Page 10
                               The Complexity of the Law Makes Administering
                                the Alternative Motor Vehicle Credit Difficult



IV.      Determined whether controls were implemented to identify and prevent fraudulent claims
         of the Credit.
         A. Requested information from IRS personnel outlining controls employed to identify
            and prevent erroneous claims of the Credit.
         B. Evaluated the effectiveness of current controls over erroneous claims of the Credit.
V.       Determined whether taxpayers claiming the Credit were claiming only qualified vehicles
         and were claiming appropriate amounts.
         A. Obtained vehicle registration information from the DMVs for the States of Florida,
            Texas, and Utah.4
         B. Identified a judgmental sample5 of 283 returns from the DMV data obtained in
            Step V.A. for which a tax return had been filed with a claim for the Credit. For this
            test, we excluded leased vehicles.
         C. Determined whether the vehicle for which the Credit was claimed was qualified for
            the Credit under the Energy Policy Act based on the IRS’ list of qualified vehicles.
         D. Determined the amount of the Credit available for the type of vehicle for which the
            Credit claim was made and whether the amount claimed was correct.
VI.      Determined whether taxpayers were inappropriately claiming leased vehicles as
         qualifying for the Credit.
         A. Identified leased vehicles from the DMV records obtained from Florida, Texas, and
            Utah.
         B. Reviewed a judgmental sample6 of 94 taxpayer accounts for which the State DMV
            data indicated that the taxpayer had leased a qualified vehicle and who had filed a
            2006 tax return.




4
  We were unable to perform tests to determine the reliability of the data received from the DMVs. However, we
believe that the inability to perform these tests did not affect the audit results or conclusions.
5
  A judgmental sample was used for this review because we could not obtain vehicle registration information for
each State, and because we started the review early in the filing season when many taxpayers qualifying for the
Credit had not yet filed their 2006 tax return. In addition, the total population of taxpayers claiming the Credit could
not be determined.
6
  A judgmental sample was used for this review because the review was conducted early in the filing season when
many taxpayers had not yet filed their 2006 tax return. Additionally, to obtain returns for review, it was necessary to
research many taxpayer accounts to find the small number of taxpayers who had filed a return and had a leased
vehicle registered in their name on one of the three State DMV databases we obtained.
                                                                                                              Page 11
                              The Complexity of the Law Makes Administering
                               the Alternative Motor Vehicle Credit Difficult



VII.    Determined whether egregious claims for the Credit could be identified by reviewing
        claims for more than $4,000.
        A. Obtained an extract from the Tax Return Database7 for all electronically filed
           individual returns claiming the Credit for more than $4,000.
        B. Established the reliability of the data obtained by tracing 30 taxpayer accounts to the
           data posted in IRS’ Integrated Data Retrieval System8 file to confirm the accuracy of
           the data.
        C. Reviewed all 420 accounts from the extract received in Step VII. A. to determine the
           type and number of erroneous claims contained in the population of electronically
           filed claims for more than $4,000.




7
  The authoritative data store for electronically filed tax returns for Tax Years 1998 and beyond.
8
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account record.
                                                                                                             Page 12
                        The Complexity of the Law Makes Administering
                         the Alternative Motor Vehicle Credit Difficult



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit, Small Business and Corporate
Programs
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
W. George Burleigh, Lead Auditor
Kyle D. Bambrough, Senior Auditor
Douglas C. Barneck, Senior Auditor
Martha Stewart, Information Technology Specialist




                                                                                      Page 13
                       The Complexity of the Law Makes Administering
                        the Alternative Motor Vehicle Credit Difficult



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Treasury Assistant Secretary for Tax Policy
Deputy Commissioner for Services and Enforcement SE
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Exam Planning and Delivery, Small Business/Self-Employed Division SE:S:E:EPD
Director, Exam Policy, Small Business/Self-Employed Division SE:S:E:EP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Interal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                  Page 14
                              The Complexity of the Law Makes Administering
                               the Alternative Motor Vehicle Credit Difficult



                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
Revenue Protection – Actual; $28,631 in underpaid taxes due to erroneous claims from
21 taxpayer accounts (see page 6).

Methodology Used to Measure the Reported Benefit:
We obtained DMV information from three States for qualified hybrid vehicles. We identified
94 vehicles that were leased to taxpayers and for which taxpayers had filed their 2006 tax
returns. We reviewed the tax returns of each of the taxpayers leasing the 94 vehicles to
determine whether the taxpayers had claimed the Alternative Motor Vehicle Credit (Credit).
We determined that 21 taxpayers (22 percent) of the 94 cases reviewed erroneously claimed the
Credit, thereby reducing their tax liabilities by a total of $28,631.

Type and Value of Outcome Measure:
Revenue Protection – Actual; $123,197 in underpaid taxes from erroneous claims from
48 taxpayer accounts (see page 7).

Methodology Used to Measure the Reported Benefit:
The Treasury Inspector General for Tax Administration Technology unit provided a database
containing all 420 electronically filed individual returns that claimed the Credit for more than
$4,000 from the Tax Return Database.1 We reviewed 100 percent of the electronically filed
returns claiming the Credit for more than $4,000 to determine whether the IRS could identify and
correct erroneous claims by reviewing the cases claiming the Credit of more than $4,000.



1
 The Tax Return Database is the authoritative data store for electronically filed tax returns for Tax Years 1998 and
beyond.




                                                                                                            Page 15
                         The Complexity of the Law Makes Administering
                          the Alternative Motor Vehicle Credit Difficult



We determined that 27 of the claims for more than $4,000 claimed vehicles that did not qualify
for the Credit. These 27 taxpayers claimed Credits totaling $411,189, which resulted in
erroneous reductions to their tax liabilities totaling $90,041.
We also determined that 21 of the 420 taxpayers claimed the Credit for amounts that exceeded
the maximum allowable Credit for the qualified vehicle claimed. These 21 taxpayers made
claims for $1,878,675 more than they should have, resulting in erroneous reductions to their tax
liabilities totaling $33,156.




                                                                                         Page 16
        The Complexity of the Law Makes Administering
         the Alternative Motor Vehicle Credit Difficult



                                                   Appendix V

Management’s Response to the Draft Report




                                                          Page 17
The Complexity of the Law Makes Administering
 the Alternative Motor Vehicle Credit Difficult




                                                  Page 18
The Complexity of the Law Makes Administering
 the Alternative Motor Vehicle Credit Difficult




                                                  Page 19
The Complexity of the Law Makes Administering
 the Alternative Motor Vehicle Credit Difficult




                                                  Page 20
The Complexity of the Law Makes Administering
 the Alternative Motor Vehicle Credit Difficult




                                                  Page 21
